                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Congressionally Requested
                        Information on EPA
                        Utilization of Integrated
                        Risk Information System
                        Report No. 13-P-0127                    January 31, 2013




Scan this mobile code
to learn more about
the EPA OIG.
Contributors:                        Leon Carter                  Elizabeth Grossman
                                     Dwayne Crawford              Eric Lewis
                                     Christine El-Zoghbi          Ryan Patterson




Abbreviations

ATSDR                 Agency for Toxic Substances and Disease Registry
CAA                   Clean Air Act (Title V Clean Air Act permits)
EPA                   U.S. Environmental Protection Agency
FIFRA                 Federal Insecticide, Fungicide, and Rodenticide Act
HEAST                 Health Effects Assessment Summary Tables
IRIS                  Integrated Risk Information System
NAAQS                 National Ambient Air Quality Standards
NESHAP                National Emission Standards for Hazardous Air Pollutants
NPDES                 National Pollutant Discharge Elimination System
NPDWR                 National Primary Drinking Water Regulations
NSPS                  New Source Performance Standards
OA                    Office of the Administrator
OAR                   Office of Air and Radiation
OCSPP                 Office of Chemical Safety and Pollution Prevention
OECA                  Office of Enforcement and Compliance Assurance
OEI                   Office of Environmental Information
OIG                   Office of Inspector General
ORD                   Office of Research and Development
OSWER                 Office of Solid Waste and Emergency Response
OW                    Office of Water
PPRTV                 Provisional-Peer Reviewed Toxicity Values
RCRA-CE               Resource Conservation and Recovery Act Criminal Enforcement
RCRA-HWS              Resource Conservation and Recovery Act Hazardous Waste Site Restoration
SF Characterization   Superfund site characterization
SF-Remedial           Superfund site remedial activities
SF-Removal            Superfund site removal activities
TSCA                  Toxic Substances Control Act




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0127
                                                                                                       January 31, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Congressionally Requested Information on EPA 

We collected this information in    Utilization of Integrated Risk Information System 

response to a congressional
request to “determine if EPA         What We Found
[U.S. Environmental Protection
Agency] program offices and         Based on the results of our survey, 85 percent of the EPA survey respondents
regions incorporate in their        reported that they have used IRIS as their primary source for cancer values and
regulatory decision-making the      81 percent have used IRIS as their primary source for non-cancer values. More
exposure dose concentrations        than half (51 percent) of the survey respondents who reported using IRIS as the
or values that are listed in the    primary source for cancer values indicated a reason they did so was because it
IRIS [Integrated Risk               was required for the activity they were conducting. Similarly, more than half
Information System] database.”      (52 percent) of the survey respondents who reported using IRIS as the primary
                                    source for non-cancer values indicated a reason they did so was because it was
IRIS is an EPA Web-based            required for the activity they were conducting. About one-third (34 percent) of the
program that evaluates risk         survey respondents reported that they have used an alternate source for toxicity
information on human health         values when an IRIS value was available. The primary reason selected for using
effects that may result from        an alternate source was that the alternate source was more up-to-date with
exposure to environmental           current scientific practice or information.
contaminants. IRIS consists of
chemical assessments and            We found no EPA policy mandating the use of any toxicity database including
quantitative toxicity values that   IRIS. The Office of Solid Waste and Emergency Response has issued a directive
have been developed by EPA          that recommends using EPA’s IRIS as the first tier source of human health
and undergone peer review.          toxicity values. Sixty-seven percent of the respondents to this survey reported
IRIS contains information for       that they have used IRIS for Superfund program activities. Sixty-five percent of
more than 550 chemical              respondents also indicated that there are standard operating procedures
substances, including cancer        regarding how to choose a source of toxicity values. Sixteen percent of
and non-cancer human health         respondents identified the Office of Solid Waste and Emergency Response
effects.                            directive as this standard operating procedure.

This work product addresses         All survey responses were self-reported by the EPA respondents and were not
the following EPA Goal or           verified by the Office of Inspector General.
Cross-Cutting Strategy:
                                    We make no recommendations in this work product.
 Advancing science,
  research, and technological
  innovation


For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130131-13-P-0127.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                     THE INSPECTOR GENERAL




                                           January 31, 2013

MEMORANDUM

SUBJECT:	 Congressionally Requested Information on EPA Utilization of
          Integrated Risk Information System
          Report No. 13-P-0127


FROM:           Arthur A. Elkins, Jr.

TO:	            Lek Kadeli
                Acting Assistant Administrator for Research and Development


This is our final work product on the results of a survey of U.S. Environmental Protection
Agency (EPA) staff conducted by the Office of Inspector General (OIG). We designed and
conducted the survey and analyzed results from April 2012 through January 2013 in response to
a congressional request. The purpose of the survey was to assess the EPA’s use of the Integrated
Risk Information System (IRIS).

Because this work product contains no recommendations, you are not required to respond to this
document. Therefore, this work product is considered closed.

We have no objections to the further release of this report to the public. We will post this report to
our website at http://www.epa.gov/oig.

Should you have any questions, please contact Carolyn Copper, Assistant Inspector General for
Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov; or Eric Lewis, Director,
Special Reviews, at (202) 566-2664 or lewis.eric@epa.gov.
Congressionally Requested Information on                                                                                      13-P-0127
EPA Utilization of Integrated Risk Information System


                                    Table of Contents

Chapters
   1     Introduction ........................................................................................................       1


                 Purpose .......................................................................................................     1     

                 Background .................................................................................................        1     

                 Scope and Methodology ..............................................................................                2     


   2     Results of Survey ...............................................................................................           3


                 Why some respondents use IRIS ................................................................                      4

                 Why some respondents use an alternate source ........................................                               6

                 Why some respondents or their teams use alternate values 

                      for substances available in IRIS ........................................................                      8

                 Respondents developing their own toxicity values ......................................                            10 

                 Remaining responses to the OIG IRIS Utilization Survey ...........................                                 11 


   Status of Recommendations and Potential Monetary Benefits..............................                                          19




Appendices
   A     Survey .................................................................................................................   20


   B     Distribution .........................................................................................................     26 

                                  Chapter 1

                                   Introduction
Purpose
            In February 2012, the Office of Inspector General (OIG), U.S. Environmental
            Protection Agency (EPA), received a congressional request to “determine if EPA
            program offices and regions incorporate in their regulatory decision-making the
            exposure dose concentrations or values that are listed in the IRIS [Integrated Risk
            Information System] database.” In response, we sought to determine:

               1) Which EPA offices and regions utilize data derived from IRIS assessments
                  or other similar systems.
               2) How EPA offices and regions utilize data derived from IRIS assessments.
               3) The circumstances under which EPA offices and regions use IRIS or an
                  alternate system.

Background
            IRIS is a human health assessment program that evaluates risk information on
            effects that may result from exposure to environmental contaminants. The IRIS
            program includes a Web-based database of chemical assessments and quantitative
            toxicity values that have been developed by EPA and undergone peer review. The
            IRIS database contains information for more than 550 chemical substances,
            including cancer and non-cancer human health effects that may result from
            exposure to various substances in the environment.

            The National Center for Environmental Assessment within the Office of Research
            and Development (ORD) prepares the IRIS assessments, manages the peer review
            process, and maintains the online database. According to the National Center for
            Environmental Assessment, the main purpose of IRIS is to meet EPA statutory,
            regulatory, or program implementation needs with special emphasis on chemicals
            of high interest to the public or other levels of government.

            IRIS is not the only source available to EPA employees for toxicity values. Other
            toxicity databases available to EPA staff include, but are not limited to:

                  Provisional-Peer Reviewed Toxicity Values (PPRTVs), ORD Office of
                   Superfund Remediation and Technology Innovation, EPA.
                  Health Effects Assessment Summary Tables (HEAST), ORD Office of
                   Superfund Remediation and Technology Innovation, EPA.
                  California Environmental Protection Agency toxicity database.
                  Agency for Toxic Substances and Disease Registry’s (ASTDR’s) Minimal
                   Risk Levels.


13-P-0127                                                                                     1
            We found no EPA policy mandating the use of any toxicity database, including IRIS.
            OSWER has issued a directive that identifies IRIS as the first tier of a hierarchy of
            databases and as the generally preferred source of human health toxicity values. The
            second tier is EPA’s PPRTVs; the third tier includes other sources of information.

Scope and Methodology
            We conducted this review from April 2012 to January 2013 and completed the
            survey from April to June 2012. We completed this review in accordance with
            generally accepted government auditing standards, except that we did not verify
            the information reported by survey respondents and did not use statistical
            techniques for selecting the survey participants. These efforts would likely have
            delayed reporting significantly. Not complying with these two elements of the
            standards does not have an effect on the outcome of this review. The scope of
            work completed sufficiently addresses the purpose of this review.

            We designed a survey with 23 questions addressing the Agency’s use of IRIS.
            The survey responses were self-reported by EPA personnel and were not verified
            by the OIG. A copy of the survey questions are in appendix A.

            The survey included four opportunities for respondents to provide write-in
            answers. These write-in answers contain some information that is personally
            identifiable to specific respondents and did not provide quantifiable responses for
            analysis. The responses therefore are not included in this work product.

            Participant Selection
            All survey participants were current EPA employees at that time. We selected
            survey participants from two sources:

               1.	 We contacted Agency audit follow-up coordinators from all 10 regional
                   and 12 program offices and asked them to identify “EPA
                   managers/supervisors/team leaders who work with, or supervise teams
                   who work with, toxicity values provided in IRIS or other similar systems.”
                   We did not include OIG in our survey. This list identified 67 individuals.
               2.	 We also used names provided by ORD. This list contained managers and
                   senior scientists who use human health toxicity values in their groups.
                   This list identified 442 individuals.

            ORD also provided us with a second contact list. However, these individuals were
            not included in the survey due to the methodology used to select these individuals.
            After collating the lists and eliminating redundancies, we invited 415 individuals
            to participate in the survey. The response rate was 93 percent (387 respondents).
            However, after adjustments for partial responses (11), unconfirmed EPA
            employment status (2), and the non-use of carcinogenic or non-carcinogenic
            toxicity values (74), we had 300 responses from EPA personnel who stated that
            they used toxicity values in their work.


13-P-0127                                                                                       2
                                  Chapter 2

                             Results of Survey
            Of the 300 survey respondents, 256 (85 percent) indicated that IRIS was their
            primary source for carcinogenic toxicity values, and 242 (81 percent) indicated
            that IRIS was their primary source for non-cancer toxicity values. This chapter
            summarizes why respondents primarily use IRIS or an alternate source, why
            respondents use alternate values when a substance is available in IRIS, and how
            many respondents developed their own toxicity values. We also noted the
            following:

               	 Although 85 percent of the respondents indicated that they use IRIS as
                  their primary source to provide carcinogenic toxicity values, less than
                  30 percent of the respondents identified a reason they use IRIS as either
                  scientific accuracy, the ability to verify the data, or the currency of data.

               	 Thirty-four percent of all respondents (103) indicated that they have
                  experienced a situation in which they researched a substance that was
                  listed in IRIS but used toxicity values from another source instead. The
                  majority of respondents (68 percent) who indicated that they used an
                  alternate value from a source other than IRIS for substances available in
                  IRIS cited currency with scientific practice or information as a reason they
                  chose an alternate value.




13-P-0127                                                                                         3
Why some respondents use IRIS
                  Survey question 10 allowed the respondents to select up to three possible reasons
                  why IRIS is used as the primary source for carcinogenic toxicity values. Because
                  each respondent could select up to three responses, the sum of percentages for all
                  answers is greater than 100 percent. As shown in figure 1, the percentage of
                  respondents selecting each response is:

                           Data in IRIS is more scientifically accurate than other sources (selected by
                            29% of respondents).
                           The IRIS approach is more up to date with current scientific practice or
                            information than other sources (selected by 21% of respondents).
                           IRIS is more accessible than other sources (selected by 16% of
                            respondents).
                           Data in IRIS is more applicable to my specific work environment than
                            other sources (selected by 41% of respondents).
                           The validity of the IRIS data is easier to verify than other sources (selected
                            by 27% of respondents).
                           Use of IRIS is required for the activity I and/or my team are completing
                            (selected by 51% of respondents).


Figure 1: Reasons why IRIS is the primary source for carcinogenic toxicity values




Note: N represents the number of respondents who answered this question. Percentages were rounded to the
nearest whole number.

Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                                  4
                  Survey question 15 allowed the respondents to select up to three possible reasons
                  why IRIS is used as the primary source for non-cancerous toxicity values.
                  Because each respondent could select up to three responses, the sum of
                  percentages for all answers is greater than 100 percent. As shown in Figure 2, the
                  percentage of respondents selecting each response is:

                           Data in IRIS is more scientifically accurate than other sources (selected by
                            31% of respondents).
                           The IRIS approach is more up to date with current scientific practice or
                            information than other sources (selected by 22% of respondents).
                           IRIS is more accessible than other sources (selected by 19% of
                            respondents)
                           Data in IRIS is more applicable to my specific work environment than
                            other sources (selected by 41% of respondents).
                           The validity of the IRIS data is easier to verify than other sources (selected
                            by 24% of respondents)
                           Use of IRIS is required for the activity I and/or my team are completing
                            (selected by 52% of respondents).


Figure 2: Reasons why IRIS is the primary source for non-cancerous toxicity values




Note: N represents the number of respondents who answered this question. Percentages were rounded to the
nearest whole number.

Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                                  5
Why some respondents use an alternate source
                  Only 8 percent of respondents reported that in conducting their main activity they
                  did not use IRIS for either carcinogenic or non-cancerous toxicity values. We
                  sought to understand through a series of questions what alternate source they use
                  and why they use an alternate source.

                  Of the 300 respondents, 44 (15 percent) indicated that IRIS is not their primary
                  source for carcinogenic toxicity values.

                  Survey question 11 allowed the respondents to select up to three possible reasons
                  why they use an alternate source for carcinogenic toxicity values. Because each
                  respondent could select up to three responses, the sum of percentages for all
                  answers is greater than 100 percent. As shown in figure 3, the percentage of
                  respondents selecting each response is:

                           Data in alternate source is more scientifically accurate (selected by 11% of
                            respondents).
                           Alternate source is more up-to-date with current scientific practice or
                            information (selected by 20% of respondents).
                           Alternate source is more accessible (selected by 32% of respondents).
                           Data in alternate source is more applicable to my specific work
                            environment (selected by 52% of respondents).
                           Validity of data in alternate source is easier to verify (selected by 5% of
                            respondents).
                           The state (in which activity is undertaken) requires an alternative source
                            (selected by 9% of respondents).
                           Substance researched is not available in IRIS (selected by 27% of
                            respondents).
Figure 3: Reasons why respondents use an alternate source for carcinogenic toxicity values




Note: N represents the number of respondents who answered this question. Percentages were rounded to the
nearest whole number.
Source: OIG’s IRIS utilization survey results.



13-P-0127                                                                                                  6
                  Of the 300 respondents, 58 (19 percent) indicated that IRIS is not their primary
                  source for non-cancerous toxicity values. Survey question 16 allowed the
                  respondents to select up to three possible reasons why they use an alternate source
                  for non-cancerous toxicity values. Because each respondent could select up to
                  three responses, the sum of percentages for all answers is greater than
                  100 percent.

                           Data in alternate source is more scientifically accurate (selected by 12% of
                            respondents).
                           Alternate source approach is more up-to-date with current scientific
                            practice or information (selected by 28% of respondents).
                           Alternate source is more accessible (selected by 31% of respondents).
                           Data in alternate source is more applicable to my specific work
                            environment (selected by 45% of respondents).
                           Validity of data in alternate source is easier to verify (selected by 5% of
                            respondents).
                           The state (in which activity is undertaken) requires an alternative source
                            (selected by 7% of respondents).
                           Substance researched is not available in IRIS (selected by 38% of
                            respondents).

Figure 4: Reasons why an alternate source is used for non-cancerous toxicity values




Note: N represents the number of respondents who answered this question. Percentages were rounded to the
nearest whole number.

Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                                  7
Why some respondents or their teams use alternate values for
substances available in IRIS
                  Of the 300 respondents, 103 (34 percent) indicated that they have experienced a
                  situation in which they or their team researched a substance listed in IRIS but
                  used a toxicity value from another source instead of those available in IRIS.
                  Figure 5 shows the number of respondents in each office who reported that they
                  had experienced such a situation.

Figure 5: Respondents who use alternate values for substances available in IRIS (by office)




Note: Abbreviations for program offices identified are listed in the below paragraph (OEI stands for Office of
Environmental Information). A total of 300 respondents answered the question. This figure displays only the
103 respondents that answered the question in the affirmative.

Source: OIG’s IRIS utilization survey results.

                  While 34 percent of all respondents indicated experiencing a situation in which
                  they researched a substance listed in IRIS but used a toxicity value from another
                  source instead, more than 30 percent of the respondents from the following
                  offices indicated they had experienced this situation:

                           Office of the Administrator (OA) 

                           Office of Air and Radiation (OAR) 

                           Office of Chemical Safety and Pollution Prevention (OCSPP) 

                           Office of Enforcement and Compliance Assurance (OECA) 

                           Office of Research and Development (ORD) 

                           Office of Solid Waste and Emergency Response (OSWER) 

                           Office of Water (OW)

                           Regions 9 and 101

1
    OA, OECA, ORD, and OW had fewer than 10 survey respondents; further details are in Figure 8.


13-P-0127                                                                                                        8
                  Survey question 19 allowed the respondents to select up to three possible reasons
                  why they use alternate values for substances that are available in IRIS. Because
                  each respondent could select up to three responses, the sum of percentages for all
                  answers is greater than 100 percent. As shown in Figure 6, the percentage of
                  respondents selecting each response is:

                           Data in alternate source is more scientifically accurate (selected by 20% of
                            respondents).
                           Alternate system source is more up-to-date with current scientific practice
                            or information (selected by 68% of respondents).
                           Alternate source is more accessible (selected by 5% of respondents).
                           Data in alternate source is more applicable to my specific work
                            environment (selected by 43% of respondents).
                           Validity of data in alternate source is easier to verify (selected by 3% of
                            respondents).
                           The state (in which activity is undertaken) requires an alternative source
                            (selected by 22% of respondents).


Figure 6: Reasons why respondents use alternative values for substances available in IRIS




Note: N represents the number of respondents who answered this question. Percentages were rounded to the
nearest whole number.

Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                                  9
Respondents developing their own toxicity values
                  Of the 300 respondents, 85 (28 percent) indicated that they had experienced a
                  situation in which they or their team developed their own toxicity values. Figure 7
                  shows the number of respondents in each office who reported having experienced
                  such a situation.


Figure 7: Respondents developing their own toxicity values (by office)




Note: N represents the number of respondents who answered this question. This figure displays only those who
answered the question in the affirmative.

Source: OIG’s IRIS utilization survey results.


                  More than 30 percent of respondents in two program offices (OCSPP and OW)
                  and three regions (4, 6, and 8), reported having experienced a situation in which
                  they or their team developed their own toxicity values.




13-P-0127                                                                                                      10
Remaining responses to the OIG IRIS Utilization Survey
                  The following graphs (figures 8–21) show the remaining IRIS utilization survey 

                  questions and responses (questions 1-8, 12, 13, 17, 18, 20, and 22) not previously 

                  illustrated in this work product.



Figure 8: Question 1





Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                          11
Figure 9: Question 2




Source: OIG’s IRIS utilization survey results.




Figure 10: Question 3





Source: OIG’s IRIS utilization survey results.




13-P-0127                                        12
Figure 11: Question 4




Source: OIG’s IRIS utilization survey results.




Figure 12: Question 5





Source: OIG’s IRIS utilization survey results.




13-P-0127                                        13
Figure 13: Question 6




Note: Abbreviated program activities identified: National Ambient Air Quality Standards (NAAQS); National Emission
Standards for Hazardous Air Pollutants (NESHAP); New Source Performance Standards (NSPS); Title V Clean Air
Act permits (CAA); National Primary Drinking Water Regulations (NPDWR); National Pollutant Discharge Elimination
System (NPDES); Toxic Substances Control Act (TSCA); Federal Insecticide, Fungicide, and Rodenticide Act
(FIFRA); Resource Conservation and Recovery Act Criminal Enforcement (RCRA-CE); Resource Conservation and
Recovery Act Hazardous Waste Site Restoration (RCRA-HWS); Superfund site characterization
(SF-Characterization); Superfund site removal activities (SF-Removal); and Superfund site remedial activities
(SF-Remedial).

Source: OIG’s IRIS utilization survey results.

 Figure 14: Question 7




 Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                                      14
Figure 15: Question 8


            In conducting your main activity, what is the primary information source you use to 

                             obtain a chemical's carcinogenic toxicity value?

                                                   N=300

              90        85
             80
             70
  Percent




             60
             50
             40
             30
             20
                                                                                         10
             10
                                           3              1              1
              0
                     EPA's IRIS         ATSDR           HEAST         PPRTVs           Other
                                                 Toxicity databases
Source: OIG’s IRIS utilization survey results.




Figure 16: Question 12

            In conducting your main activity, do you or your team use EPA's IRIS non-cancerous
                                               toxicity values?
                                                    N=300

                                                   No
                                                  10%




                                                          Yes
                                                          90%




Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                           15
Figure 17: Question 13

           In conducting your main activity, what is the primary information source you use to obtain a 

                                   chemical's non-cancerous toxicity value?

                                                       N=300

             90
                       81
             80
                70
                60
 Percent




                50
                40
                30
                20                                                                             12
                                             4
                10
                                                              2                 1
                 0
                          EPA's IRIS      ATSDR             HEAST             PPRTVs          Other
                                                      Toxicity Databases
Source: OIG’s IRIS utilization survey results.




Figure 18: Question 17

                 How frequently do you or your team incorporate toxicity values different from those 

                                  provided in IRIS into your office's final products

                                                        N=300

                     35
                                                        32
                     30
                                                                                                 26
                     25
                                                                       19
      Percent




                     20
                     15                    14

                     10
                                  6
                                                                                        3
                      5
                      0
                               Always   Frequently   Sometimes       Rarely         Never    I don't know
                                                         Answer options

Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                                   16
 Figure 19: Question 18

        Have you experienced a situation in which you or your team researched a
       substance that was listed in IRIS but you used toxicity values from another
                       source instead of those available in IRIS?
                                          N=300




                                                       Yes
                                                       34%



                                           No
                                          66%




 Source: OIG’s IRIS utilization survey results.




Figure 20: Question 20


     Have you experienced a situation in which you or your team developed your own toxicity
                                             values?
                                              N=300



                                                             Yes
                                                             28%




                                                  No
                                                 72%




Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                     17
Figure 21: Question 22


   Are there any Standard Operating Procedures or other guidance regarding how to choose
                      a source of toxicity values for your office's work?
                                             N=300



                                                  No
                                                 35%



                                                       Yes
                                                       65%




Source: OIG’s IRIS utilization survey results.




13-P-0127                                                                                  18
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0127                                                                                                                         19
                                                                         Appendix A
                                               Survey

For which Office/Region do you work?

           Region 1
           Region 2
           Region 3
           Region 4
           Region 5
           Region 6
           Region 7
           Region 8
           Region 9
           Region 10
           Office of the Administrator (OA)
           Office of Administration and Resources Management (OARM)
           Office of Air and Radiation (OAR)
           Office of the Chief Financial Officer (OCFO)
           Office of Chemical Safety and Pollution Prevention (OCSPP)
           Office of Enforcement and Compliance Assurance (OECA)
           Office of Environmental Information (OEI)
           Office of General Counsel (OGC)
           Office of Inspector General (OIG)
           Office of International and Tribal Affairs (OITA)
           Office of Research and Development (ORD)
           Office of Solid Waste and Emergency Response (OSWER)
           Office of Water (OW)

Where are you located?

           Region 1
           Region 2
           Region 3
           Region 4
           Region 5
           Region 6
           Region 7
           Region 8
           Region 9
           Region 10
           Headquarters
           Research Triangle Park
           Cincinnati
           Other, please specify below.




13-P-0127                                                                        20
What is your pay category/grade?

           GS-1
           GS-2
           GS-3
           GS-4
           GS-5
           GS-6
           GS-7
           GS-8
           GS-9
           GS-10
           GS-11
           GS-12
           GS-13
           GS-14
           GS-15
           Senior Executive Service
           Senior Level or Scientific or Professional
           Other



What is your supervisory status?

         Non-Supervisor
         Supervisor

What is the main activity for which you or your team use carcinogenic or non-cancerous toxicity values?

           Setting cleanup levels/calculating screening levels/calculating preliminary remediation goals
           Supporting regulatory development or rulemaking
           Calculating a chemical's exposure level corresponding to a given chemical exposure level
           Calculating the risk level corresponding to a given risk level
           Calculating Regional Screening Levels
           Evaluating toxicity values in the Five Year Review
           I and my team do not use carcinogenic or non-cancerous toxicity values.

In the past five years, identify the program activities that you in your current position or your team have
used the toxicity values from the IRIS database to support. (Please check all that apply.)

           National Ambient Air Quality Standards (NAAQS)
           National Emission Standards for Hazardous Air Pollutants (NESHAP)
           New Source Performance Standards (NSPS)
           Title V Clean Air Act (CAA) permits
           National Primary Drinking Water Regulations (NPDWR)
           National Pollutant Discharge Elimination System (NPDES)
           Toxic Substances Control Act (TSCA)
           Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA)



13-P-0127                                                                                                     21
           Resource Conservation and Recovery Act (RCRA) Criminal Enforcement
           Resource Conservation and Recovery Act (RCRA) Hazardous waste site restoration
           Superfund site characterization
           Superfund site removal activities
           Superfund site remedial activities
           Other, please specify below

In conducting your main activity, do you or your team use EPA's IRIS carcinogenic toxicity values?

         Yes
         No

In conducting your main activity, what is the primary information source you use to obtain a chemical's
carcinogenic toxicity value?

         EPA's IRIS [Integrated Risk Information System]
         PPRTVs [Provisional Peer-Reviewed Toxicity Values] HEAST [Health Effects Assessment
             Summary Tables]
         CalEPA [California Environmental Protection Agency] toxicity database
         ATSDR [Agency for Toxic Substances and Disease Registry] Minimal Risk Levels
         Other


Please identify the primary information source you use to obtain a chemical's carcinogenic toxicity value.




You indicated that IRIS is the primary source you use to obtain a chemical's carcinogenic toxicity value.
Why is IRIS your primary source? You may choose up to three (3) responses.

        Data in IRIS is more scientifically accurate than other sources.
        IRIS approach is more up-to-date with current scientific practice or information than other
            sources.
           IRIS is more accessible than other sources.
           Data in IRIS is more applicable to my specific work environment than other sources.
           Validity of data in IRIS is easier to verify than other sources.
           Use of IRIS is required for the activity I and/or my team are completing.


You indicated IRIS is not the primary source of carcinogenic toxicity values for your main activity. Why do
you use an alternate source (which contains values different than IRIS) instead of IRIS? You may choose
up to three (3) responses.

        Data in alternate source is more scientifically accurate.
        Alternate source approach is more up-to-date with current scientific practice or information.
        Alternate source is more accessible.


13-P-0127                                                                                                   22
           Data in alternate source is more applicable to my specific work environment.
           Validity of data in alternate source is easier to verify.
           Alternate source is required by state in which activity is undertaken.
           Substance researched is not available in IRIS.

In conducting your main activity, do you or your team use EPA's IRIS non-cancerous toxicity values?

         Yes
         No

In conducting your main activity, what is the primary information source you use to obtain a chemical's
non-cancerous toxicity value?

         EPA's IRIS [Integrated Risk Information System] PPRTVs [Provisional Peer-Reviewed
             Toxicity Values]
         HEAST [Health Effects Assessment Summary Tables]
         CalEPA [California Environmental Protection Agency] toxicity database
         ATSDR [Agency for Toxic Substances and Disease Registry] Minimal Risk Levels

Please identify the primary information source you use to obtain a chemical's non-cancerous toxicity
value.




You indicated that IRIS is the primary source you use to obtain a chemical's non-cancerous toxicity value.
Why is IRIS your primary source? You may choose up to three (3) responses.

        Data in IRIS is more scientifically accurate than other sources
        IRIS approach is more up-to-date with current scientific practice or information than other
            sources.
           IRIS is more accessible than other sources.
           Data in IRIS is more applicable to my specific work environment than other sources.
           Validity of data in IRIS is easier to verify than other sources.
           Use of IRIS is required for the activity I and/or my team are completing.



You indicated IRIS is not the primary source of non-cancerous toxicity values for your main activity. Why
do you use an alternate source (which contains values different than IRIS) instead of IRIS? You may
choose up to three (3) responses.

           Data in alternate source is more scientifically accurate.
           Alternate source approach is more up-to-date with current scientific practice or information.
           Alternate source is more accessible.
           Data in alternate source is more applicable to my specific work environment.
           Validity of data in alternate source is easier to verify.


13-P-0127                                                                                                   23
        Alternate source is required by state in which activity is undertaken.
        Substance researched is not available in IRIS.

How frequently do you or your team incorporate toxicity values different from those provided in IRIS into
your office's final products?

            Always
            Frequently
            Sometimes
            Rarely
            Never
            I don't know

Have you experienced a situation in which you or your team researched a substance that was listed in
IRIS but you used toxicity values from another source instead of those available in IRIS?

         Yes
         No

You indicated that you have experienced a situation in which you or your team researched a substance
that was listed in IRIS but you used toxicity values from another source. In that situation, why did you use
the values from the other source? You may choose up to three (3) responses.

           Data in alternate source is more scientifically accurate.
           Alternate system source is more up-to-date with current scientific practice or information.
           Alternate source is more accessible.
           Data in alternate source is more applicable to my specific work environment.
           Validity of data in alternate source is easier to verify.
           Alternate source is required by state in which activity is undertaken.

Have you experienced a situation in which you or your team developed your own toxicity values?

         Yes
         No

Please describe the situation in which you or your team developed your own toxicity values.




Are there any Standard Operating Procedures or other guidance regarding how to choose a source of
toxicity values for your office's work?

         Yes
         No




13-P-0127                                                                                                 24
Please provide further information regarding your Standard Operating Procedures for choosing a source
of toxicity values such as guidance title, URL, or other identifying information. If you have no further
information, please enter "None." Please email a PDF of the guidance you use (if available) to … [Email
address of OIG employee included here in actual survey]




13-P-0127                                                                                              25
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Research and Development
Deputy Assistant Administrator for Science, Office of Research and Development
Principal Deputy Assistant Administrator for Management, Office of Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, National Center for Environmental Assessment, Office of Research and Development
Deputy Director, National Center for Environmental Assessment, Office of Research and
       Development
Associate Director for Health, National Center for Environmental Assessment, Office of
       Research and Development
Associate Director for Ecology, National Center for Environmental Assessment, Office of
       Research and Development
Audit Follow-Up Coordinator, Office of Research and Development




13-P-0127                                                                                26
